              TURNER JOB CORPS CENTER
              (Operated by Global Associates)




       INDEPENDENT AUDITORS== REPORT ON

     THE SCHEDULE OF JOB CORPS EXPENSES

     FOR PROGRAM YEAR ENDED JUNE 30, 2001



              FOR OFFICIAL USE ONLY

This audit report was prepared by R. Navarro & Associates, Inc.,
under contract to the U.S. Department of Labor, Office of Inspector
General, and, by acceptance, it becomes a report of the Office of
Inspector General.


                    _____________________________________
                    Assistant Inspector General for Audit
                    U.S. Department of Labor


                                     Report No.: 03-03-004BB 03-370
                                     Date Issued: August 7, 2003




           R. NAVARRO & ASSOCIATES, INC.
               Certified Public Accountants
                                                  TABLE OF CONTENTS




ACRONYMS................................................................................................................................. i


EXECUTIVE SUMMARY .......................................................................................................... ii


INDEPENDENT AUDITORS== REPORT ON THE
SCHEDULE OF JOB CORPS EXPENSES ............................................................................... 1

      Schedule of Job Corps Expenses ............................................................................................. 3

      Notes to the Schedule of Job Corps Expenses......................................................................... 4


REPORT ON INTERNAL CONTROL...................................................................................... 7


REPORT ON COMPLIANCE WITH
LAWS, REGULATIONS, AND CONTRACTS ........................................................................ 9


FINDINGS AND RECOMMENDATIONS

1.    Lack of Documentation for Security Services Subcontract
      Results in Questioned Costs of $645,945 ...............................................................................11

2.    Insufficient Controls over Payroll Processing........................................................................17

3.    Need to Improve Accountability over Inventories of Consumable Supplies.........................23

4.    Need to Improve Controls over Property and Equipment ......................................................26


EXHIBIT I – CONTRACTOR’S RESPONSE TO DRAFT AUDIT REPORT....................33




Audit Report 03-03-004-03-370
                                      ACRONYMS




        CFR                Code of Federal Regulations

        DOL                U.S. Department of Labor

        ETA                Employment and Training Administration

        ETR                Employment and Training Resources, Inc.

        EPMS               Electronic Property Management System

        FAR                Federal Acquisition Requirements

        G&A                General and Administrative

        IML                Inventory Master List

        JCDC               Job Corps Data Center

        OAP                Outreach, Admissions, and Placement

        PO                 Purchase Order

        PPAF               Personnel Payroll Action Form

        PRH                Policy and Requirements Handbook

        PRL                Property Requisition List

        RJC                Regional Job Corps

        TJCC               Turner Job Corps Center




                                                                     i
Audit Report 03-03-004-03-370
                                  EXECUTIVE SUMMARY



We were contracted by the U.S. Department of Labor (DOL), Office of Inspector General, to
perform an audit of the Turner Job Corps Center=s (TJCC) Schedule of Job Corps Expenses for
the program year ended June 30, 2001, in order to render an opinion on that schedule and to
report on internal control and compliance with laws and regulations in accordance with
applicable audit standards.

The TJCC is 1 of over 100 Job Corps Centers located throughout the country. These centers are
funded and regulated by the DOL, Office of Job Corps, and are designed for operating the Job
Corps program, a residential, educational, and training program that serves at-risk youth. The
TJCC is operated by Global Associates under contract with the DOL. In addition, the Center
subcontracted with Education and Training Resources, Inc., which was responsible for certain
operations of the Center as part of Job Corps Mentor Protege program.

Our audit objective was to obtain reasonable assurance that the Schedule of Job Corps Expenses
for program year ended June 30, 2001, was presented fairly in all material respects in accordance
with the accounting principles prescribed by the DOL, Office of Job Corps, which is a
comprehensive basis of accounting other than generally accepted accounting principles. In
accordance with this objective, we also obtained an understanding of manage ment=s internal
controls and assessed control risk, and performed tests of the TJCC=s compliance with certain
laws, regulations, and contracts. These procedures were performed as part of obtaining
reasonable assurance on the Schedule of Job Corps Expenses, and our objective did not include
expressing an opinion on the internal control or on overall compliance with laws and regulations.

Audit Results

Our opinion on the Schedule of Job Corps Expenses is qualified for $645,945 of questioned
costs. In addition, we noted certain matters that were required to be reported in accordance with
the applicable audit standards. These reportable conditions are identified in the following
paragraphs.

Lack of Documentation for Security Services Subcontract Results in Questioned Costs of
$645,945

The contractor utilized an outside company to provide security services at the Center. According
to the contractor, this subcontract (totaling about $645,000) was jointly proposed as part of the
Center operating contract, was an integral part of that proposal, and therefore, was approved by
DOL upon acceptance of the Center proposal. We noted several discrepancies regarding this
subcontract. Specifically: (1) we were not provided with the written contractual agreement
between the contractor and subcontractor that set forth the scope, payment terms, and other
pertinent criteria governing the services to be provided, and it is unclear if such an agreement


                                                                                                    ii
Audit Report 03-03-004-03-370
exists; (2) the subcontractor=s invoices for certain time periods were not adequately supported;
(3) an administrative position was charged to the subcontract as direct labor even though this
position was not approved in the proposal as such; (4) a contractor=s (fixed) fee was paid to this
subcontractor even though the proposed budget detail submitted to DOL did not include a
contractor=s fee; and (5) the proposed budget indicated a General and Administrative (G&A) rate
of 5 percent, whereas the subcontractor actually charged the Center 6.5 percent. These findings
are contrary to Job Corps’ policy, applicable regulations, and the subcontracting plan submitted
by the contractor to DOL. As a result, we were unable to determine if the costs incurred for this
subcontract were reasonable or allowable in accordance with the applicable regulations. The
total costs incurred of $645,945 represents questioned costs.

Need to Improve Controls over Payroll Processing

Our audit of the TJCC=s payroll expenses identified several deficiencies, as follows: (1) we
noted that the employee leave balances were not accrued in accordance with existing personnel
policies; (2) 29 of the 66 payroll disbursements tested (44 %) had at least one error, resulting in a
high risk of error over payroll expenses; (3) the payroll register and department listing did not
include department codes for all job positions; (4) two academic instructors did not have
teaching credentials that are required by both Job Corps and TJCC policy; and (5) approved rates
of pay could not be located to support our test of accrued leave for two Center staff. We
concluded that the internal controls over payroll were not sufficient to ensure that errors or
irregularities would be detected on a timely basis.

Need to Improve Accountability over Inventories of Consumable Supplies

Our audit of the TJCC=s inventory system for consumable supplies disclosed that the source
documents provided for the June 2001 inventory issues (i.e., amounts distributed from inventory)
were about $39,000 less that the $199,000 of inventory issues reported on the Employment and
Training Administration (ETA) 2110. We also noted instances where the value of medical and
dental issues was computed using a zero cost. The system assigned $0 unit cost to items issued
from the medical and dental inventory account. This resulted in overstating the ending inventory
and understating medical and dental expenses. Based on these facts, we conclude that the Center
did not exercise adequate accountability over Center inventories. These inventories are Federal
assets, and the lack of accountability increases the risk that such assets may not be used for their
intended purpose.

Need to Improve Controls over Property and Equipment

Our tests of the Center=s non-expendable property identified that the Center was not providing
adequate control over Job Corps property and equipment. We found that acquisitions were not
consistently entered into the Electronic Property Management System (EPMS) on a timely basis,
and we identified certain items that were not approved by DOL prior to acquisition. We found
that the Center did not document transfers of property to temporary locations; property was not
removed timely from the inventory records upon disposition; dispositions were not consistently
documented and approved in accordance with DOL requirements; no support was available for



                                                                                                   iii
Audit Report 03-03-004-03-370
certain dispositions selected for audit testing; and property was not tagged in accordance with
DOL requirements.

Recommendations

We recommend that the Assistant Secretary for Employment and Training require the contractor
to take the following corrective actions:

    Refund $645,945 because documentation maintained by the contractor did not substantiate
    that these costs were reasonable and allowable costs, incurred in accordance with the Job
    Corps contract and applicable laws and regulations.

    Ensure that subcontracts for goods or services of any nature include a written contractual
    agreement that sets forth the terms and responsibilities of all parties involved; and ensure
    that invoices submitted for any subcontracted services include adequate support for the
    amounts billed, such as time sheets or logs of hours incurred, by individual, by date; the
    related hourly rate(s) billed; and other pertinent documentation.

    Ensure that charges to the Job Corps contract include only those charges negotiated with the
    subcontractor and approved by the DOL.

    Take the necessary steps to improve existing controls at the Center to ensure that adequate
    records are maintained in support of payroll transactions; all positions include department
    codes; the processing of the biweekly payrolls is well documented, approved, and results in
    accurate and properly classified payroll transactions; and biweekly payrolls are reviewed for
    accuracy prior to distribution of the payroll checks.

    Review existing leave policies and ensure that sick and annual leave is accrued at a rate in
    accordance with such policies. Payroll records should be periodically verified to ensure that
    leave is set up correctly with the payroll service, and that the resulting leave balances are
    accurate.

    Obtain regional office approval in cases where instructors do not have the required licenses
    or credentials.

    Improve accountability over inventories of consumable supplies to ensure that records of
    inventory issues are consistently filed and maintained, and that the inventory system
    generates an accurate accounting of all receipts, issues, and ending inventory balances.

    Identify the exact value of medical and dental issues that were not properly reflected as
    expense on the general ledger and ETA 2110. Once the amount is identified, an adjustment
    should be recorded to both records.

    Improve internal controls over acquisition, maintenance, and disposition of non-expendable
    property and equipment to ensure that these Federal assets are adequately accounted for and



                                                                                                   iv
Audit Report 03-03-004-03-370
    safeguarded in accordance with Job Corps requirements. Specifically, the contractor should
    ensure that (1) EPMS is updated on a timely basis; (2) temporary transfers of property are
    tracked with some form of hand receipt system; (3) all Center property is tagged; and (4) all
    purchases of property and equipment are approved by DOL in accordance with Job Corps
    policy and procedures.

Contractor’s Response

With certain exceptions, the contractor concurred with the audit findings presented in this report
and provided various explanations for the discrepancies noted. In general, the response focused
on the fact that a new contractor operates the Center, and that the contractor believes current
policies and procedures provide sufficient control over Center operations.

In response to our finding that $645,945 of payments for security services were not supported by
a contractual agreement and were not made in accordance with the terms of the center proposal,
the contractor indicated that they consider this to be an administrative concern only. A contract
agreement was retroactively executed with the subcontractor, submitted to the Regional Office
for approval, and subsequently approved by the contracting officer. The contractor considers
this issue resolved.

Auditors’ Comments

We concur with the contractor’s stated intentions to provide adequate internal controls over
center operations. However, we cannot conclude as to any controls implemented subsequent to
the audit period, and our recommendations remain unchanged. In instances where the contractor
disputed our audit findings, additional documentation was not provided with the written response
that would substantiate the contractor’s comments and provide a basis for revision of our original
audit conclusions.

With respect to the payments for security services, we were told that information regarding the
subcontractor (CUBE) and the services to be provided were specifically identified in the Center
proposal. This was used to justify the fact that the security services were not competitively bid,
and approval was not requested from the Regional Office (the contractor claimed that acceptance
of the proposal was, in fact, approval of the “subcontract” for security services). Accordingly,
we performed audit tests to ascertain whether the costs charged by the Cube Corporation, at a
minimum, were in accordance with the terms set forth in the proposal. These tests identified
certain discrepancies between the terms of the proposal and the actual charges for security
services.

In response to our finding, the contractor has presented a subcontract agreement, retroactively
executed and approved by the Regional Office, that changes the terms set forth in the proposal
for each area reported as an audit discrepancy. We do not believe that it is appropriate to mirror
the subcontract agreement to reflect actual payments made to the Cube Corporation (CUBE),
rather that using the terms set forth in the original proposal, since the proposal (while limited)
was the only evidence as to the original agreement between the contractor and subcontractor.



                                                                                                     v
Audit Report 03-03-004-03-370
In addition, the Regional Office retroactively approved the CUBE contract based partially on the
fact that actual costs incurred were less that those budgeted in the proposal. While the actual
wages paid to security personnel were less than those budgeted in the original proposal, we noted
that security supplies were paid by the contractor rather than the subcontractor, a direct
administrative position was added to the subcontract, G&A costs were higher (the rate was
increased), and a provision for profit was added to the subcontract that was not included in the
original proposal. We do not concur that the decrease in total contract costs provides a basis by
which to conclude that the costs incurred were reasonable or that services were provided as
originally proposed. Furthermore, the contractor’s response did not address the fact that CUBE
could not locate timesheets in support of all payroll charges for the first three weeks of operation.
For these reasons, our audit recommendations pertaining to this finding remain unchanged.




                                                                                                   vi
Audit Report 03-03-004-03-370
                        INDEPENDENT AUDITORS== REPORT ON
                       THE SCHEDULE OF JOB CORPS EXPENSES


Mr. Elliot P. Lewis
Assistant Inspector General for Audit
U.S. Department of Labor
Office of Inspector General
France Perkins Building, Room S-5512
200 Constitution Avenue, NW
Washington, DC 20210

We have audited the accompanying Schedule of Job Corps Expenses of the Turner Job Corps
Center (TJCC) for the program year ended June 30, 2001. This schedule is the responsibility of
the Job Corps Center=s management. Our responsibility is to express an opinion on this schedule
based on our audit.

Except as discussed in the following paragraph, we conducted our audit in accordance with U.S.
generally accepted auditing standards and Government Auditing Standards issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain reasonable assurance that the schedule of expenses is free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the schedule of expenses. An audit also includes assessing the account ing
principles used and significant estimates made by management, as well as evaluating the overall
presentation of the schedule of expenses. We believe that our audit provides a reasonable basis
for our opinion.

We were unable to examine sufficient documentation in support of $645,945 of costs reported
on the Schedule of Job Corps Expenses, and accordingly, were unable to determine whether or
not these amounts represent allowable contract charges. These costs represent questioned costs
that are subject to audit resolution, and the decision about whether they will be allowable
contract charges will be made at the conclusion of the resolution process. Additional
information regarding these questioned costs is provided at Note 4.

As described in Note 1, the Schedule of Job Corps Expenses was prepared in conformity with the
accounting practices prescribed by DOL, Office of Job Corps, which is a comprehensive basis of
accounting other than generally accepted accounting principles.

In our opinion, except for the effects of such adjustments, if any, as might have been determined
to be necessary had we been able to examine sufficient evidence regarding the questioned costs
described above, the Schedule of Job Corps Expenses presents fairly, in all material respects, the



                                                                                                  1
Audit Report 03-03-004-03-370
expenses of the TJCC for the program year ended June 30, 2001, in conformity with the
accounting principles described in Note 1.

As described in Note 2, the Schedule of Job Corps Expenses includes indirect costs that have
been charged to the Job Corps contract in accordance with provisional indirect cost rates
negotiated with DOL. The amount charged as indirect costs is subject to future adjustment when
final rates have been issued by DOL.

In accordance with Government Auditing Standards, we have also issued reports dated
December 14, 2001, on our consideration of TJCC=s internal control and on our tests of its
compliance with certain provisions of laws, regulations, and contracts. Those reports are an
integral part of an audit performed in accordance with Government Auditing Standards and
should be read in conjunction with this report in considering the results of our audit.

This report is intended solely for the information and use of the TJCC=s management and the
U.S. Department of Labor, Office of Inspector General and Office of Job Corps. This report is
not intended to be, and should not be, used by anyone other than these specified parties.




R. Navarro & Associates, Inc.
San Diego, California
December 14, 2001




                                                                                                2
Audit Report 03-03-004-03-370
                             TURNER JOB CORPS CENTER
                             Schedule of Job Corps Expenses
                            Program Year Ended June 30, 2001

          Education personnel expense                                        $1,091,990
          Other education expense                                               176,656
          Vocational training personnel expense                               1,233,146
          Other vocational training expense                                     182,647
          Social skills personnel expense                                     3,415,130
          Other social skills expense                                           222,009
          Food expense                                                        1,331,135
          Clothing expense                                                      418,161
          Support service personnel expense                                     828,633
          Other support services expense                                        303,086
          Medical and dental personnel expense                                  723,422
          Other medical dental expense                                          279,544
          Child care personnel expense                                          109,464
          Other child care expense                                              (97,234)
          Administrative personnel expense                                    1,373,614
          Other administrative expense (Note 4)                                 766,315
          Indirect administrative expense (Note 2)                              943,452
          Facilities maintenance personnel expense                              407,190
          Other facilities maintenance expense                                  836,888
          Security personnel expense (Note 4)                                   584,021
          Other security expense                                                  33,861
          Communications expense                                                139,430
          Utilities and fuel expense                                            803,690
          Insurance expense                                                       87,309
          Motor vehicle expense                                                 117,723
          Travel and training expense                                           188,774
          Construction and rehabilitation expense (Note 1g)                     267,529
          Equipment and furniture expense (Note 1g)                             623,257
          General Services Administration vehicle rental expense                201,371
          Vocational Skills Training expense (Note 1g)                          230,811
          Outreach and screening                                                269,217
          Placement                                                             297,639

          Total expenses before Contractor’s fee                         $18,389,880
          Contractor’s fee (Notes 3 and 4)                                   827,160
          Total expenses                                                 $19,217,040

            See accompanying notes to the Schedule of Job Corps Expenses .



                                                                                           3
Audit Report 03-03-004-03-370
                               TURNER JOB CORPS CENTER

                         Notes to the Schedule of Job Corps Expenses
                             Program Year Ended June 30, 2001


NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

a.   Nature of Operations

     The TJCC is 1 of more than 100 Job Corps Centers located throughout the country. These
     Centers are funded and regulated by DOL, Office of Job Corps, and are designed for
     purposes of operating the Job Corps program, a residential, educational, and training
     program that serves at-risk youth. Job Corps offers General Education Development
     certificates, or high school equivalency programs, and training in various vocational
     offerings as well as a variety of supportive services. The primary offerings at the TJCC are
     business clerical, retail sales, health occupations, building and apartment maintenance,
     plasterer, painter, cement mason, electrician, landscape technician, and heavy construction
     mechanic. The Center is located in Albany, Georgia, and is operated by Global Associates
     under contract with DOL. In addition, the Center subcontracted with Education and
     Training Resources, Inc. (ETR) which was responsible for certain operations of the Center
     as part of Job Corps= Mentor Protege program.

b.   Basis of Accounting

     This Schedule of Job Corps Expenses has been prepared in accordance with the accounting
     practices prescribed by the Office of Job Corps, as set forth in the Policy and Requirements
     Handbook (PRH), Chapter 9, Financial Management. For the most part, the PRH prescribes
     the accrual basis of accounting with certain exceptions, which are further described in this
     report.

c.   Cost Categories

     The PRH has defined 33 separate cost categories that are used for accounting and reporting
     purposes. These categories include 29 for operating costs and 4 for capital expenditures
     such as construction and equipment costs. Costs and other contract information are reported
     monthly to the Office of Job Corps on the AJob Corps Contract Center Financial Report@
     (ETA 2110).

d.   Use of Estimates

     In conformity with the accounting practices previously identified, the preparation of
     Schedule of Job Corps Expenses requires management to make estimates and assumptions
     that effect certain reported amounts and disclosures. Accordingly, actual amounts could
     differ from those estimates.



                                                                                                    4
Audit Report 03-03-004-03-370
                               TURNER JOB CORPS CENTER

                         Notes to the Schedule of Job Corps Expenses
                             Program Year Ended June 30, 2001



e.   Accrued Leave

     Earned but unpaid leave (vacation and sick leave) is recorded as expense when paid, rather
     than at the time it is earned by Center employees. Therefore, the salaries and wages
     expenses included on the Schedule of Job Corps Expenses do not include an accrual for
     leave earned but not yet taken as of June 30, 2001.

f.   Inventories

     The TJCC maintains inventories of certain operating supplies, including clothing, food,
     medical and dental, fuel, and other supplies. Purchases of inventoried supplies are recorded
     to an inventory account when received and are charged to expense at the time of issue.
     Inventories are accounted for using average unit pricing.

g.   Property and Equipment

     Property and equipment purchased with Job Corps funds are considered property of DOL.
     Costs of such property are not capitalized and depreciated for reporting purposes, but are
     charged to expense in the period when incurred. The property and equipment items
     reflected on the Schedule of Job Corps Expenses include costs classified as construction and
     rehabilitation, equipment and furniture, and vocational skills training.


NOTE 2. INDIRECT ADMINISTRATIVE EXPENSE

Global Associates, negotiated a provisional indirect rate of 6% for the fiscal year ended June 30,
2001. This rate was awarded by the Department of Defense, the Federal cognizant agency. The
provisional rate is subject to adjustment in future periods when the final rate is determined. The
total indirect costs, reflected on the Schedule of Job Corps expenses for the program year ended
June 30, 2001, were $943,452.


NOTE 3. CONTRACTOR = S FEE

The operating contract for the TJCC includes an annual fee (i.e., provision for contractor=s profit)
of $827,164 for the contract year ended June 30, 2001. The annual fee is divided evenly over
each respective 12- month contract period and recorded as expense on a monthly basis. The total




                                                                                                     5
Audit Report 03-03-004-03-370
                              TURNER JOB CORPS CENTER

                        Notes to the Schedule of Job Corps Expenses
                            Program Year Ended June 30, 2001

contractor=s fee for the program year ended June 30, 2001, as reflected on the Schedule of Job
Corps Expenses was $827,160.

NOTE 4 - QUESTIONED COSTS

The Schedule of Job Corps Expenses includes certain charges that are considered by the auditors
to be questioned costs. These amounts represent costs charged to the Job Corps’ contract for
which documentation provided to the auditors was not sufficient to allow a determination that
such costs were reasonable and allowable contract charges in accordance with Job Corps’ policy
and other applicable regulations, or for which documentation indicated that the costs were not
charged in accordance with the terms of the Job Corps’ operating contract. The amounts
questioned are as follows:

                  Security personnel expense        $ 577,639
                  Other administrative expense         37,547
                  Contractor=s fee                     30,759

                  Total Questioned Costs            $ 645,945




                                                                                                 6
Audit Report 03-03-004-03-370
                            REPORT ON INTERNAL CONTROL


Mr. Elliot P. Lewis
Assistant Inspector General for Audit
U.S. Department of Labor
Office of Inspector General
France Perkins Building, Room S-5512
200 Constitution Avenue, NW
Washington, DC 20210

We have audited the Schedule of Job Corps Expenses of the Turner Job Corps Center (TJCC),
for the program year ended June 30, 2001, and have issued our report thereon dated
December 14, 2001.

We conducted our audit in accordance with U.S. generally accepted auditing standards and
Government Auditing Standards issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain reasonable assurance about
whether the Schedule of Job Corps Expenses is free of material misstatement.

The manageme nt of TJCC is responsible for establishing and maintaining internal controls. In
fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies and procedures. The objectives of
internal controls are to provide management with reasonable, but not absolute, assurance that
assets are safeguarded against loss from unauthorized use or disposition, and that transactions are
executed in accordance with management=s authorization and recorded properly to permit the
preparation of Schedule of Job Corps Expenses in accordance with the accounting practices
prescribed by the U.S. Department of Labor, Office of Job Corps. Because of inherent
limitations in internal cont rols, misstatements, errors or noncompliance may nevertheless occur
and not be detected. Also, projection of any evaluation of internal controls to future periods is
subject to the risk that procedures may become inadequate because of changes in conditions, or
that the effectiveness of the design and operation of policies and procedures may deteriorate.

In planning and performing our audit of the Schedule of Job Corps Expenses of TJCC for the
program year ended June 30, 2001, we obtained an understanding of the design of relevant
internal controls and determined whether they had been in placed in operation, and we assessed
control risk in order to determine our auditing procedures for the purpose of expressing our
opinion on the Schedule of Job Corps Expenses and not to provide assurance on the internal
control. Accordingly, we do not express such an opinion.



                                                                                                  7
Audit Report 03-03-004-03-370
We noted certain matters involving the internal control and its operation that we consider to be
reportable conditions under standards established by the American Institute of Certified Public
Accountants. Reportable conditions involve matters coming to our attention relating to
significant deficiencies in the design or operation of internal control that, in our judgment, could
adversely affect the organization=s ability to record, process, summarize, and report financial data
in a manner that is consistent with the assertions of management in the Schedule of Job Corps
Expenses. Reportable conditions are described in the Findings and Recommendations section of
this report as items 1 through 4.

A material weakness is a condition in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements
or noncompliance in amounts that would be material in relation to the Schedule of Job Corps
Expenses being audited, may occur and not be detected within a timely period by employees in
the normal course of performing their assigned functions.

Our consideration of internal control would not necessarily disclose all matters in internal control
that might be reportable conditions, and, accordingly, would not necessarily disclose all
reportable conditions that are also considered to be material weaknesses as defined above.
However, of the reportable conditions described in the Findings and Recommendations section
of this report, we consider item 1 to be a material weakness.

This report is intended solely for the information and use of the TJCC=s management and the
U.S. Department of Labor, Office of Inspector General and Office of Job Corps. This report is
not intended to be, and should not be, used by anyone other than these specified parties.



R. Navarro & Associates, Inc.
San Diego, California
December 14, 2001




                                                                                                    8
Audit Report 03-03-004-03-370
                          REPORT ON COMPLIANCE WITH
                       LAWS, REGULATIONS, AND CONTRACTS


Mr. Elliot P. Lewis
Assistant Inspector General for Audit
U.S. Department of Labor
Office of Inspector General
France Perkins Building, Room S-5512
200 Constitution Avenue, NW
Washington, DC 20210

We have audited the Schedule of Job Corps Expenses of the Turner Job Corps Center (TJCC) for
the program year ended June 30, 2001, and have issued our report thereon dated December 14,
2001.

We conducted our audit in accordance with U.S. generally accepted auditing standards and
Government Auditing Standards issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain reasonable assurance about
whether the Schedule of Job Corps Expenses is free of material misstatement.

Compliance with laws, regulations, and contracts applicable to TJCC is the responsibility of
TJCC=s management. As part of obtaining reasonable assurance about whether the Schedule of
Job Corps Expenses is free of material misstatement, we performed tests of TJCC=s compliance
with certain provisions of laws, regulations, and contracts. However, the objective of our audit
of the Schedule of Job Corps Expenses was not to provide an opinion on overall compliance with
such provisions. Accordingly, we do not express such an opinion.

The results of our tests disclosed certain instances of noncompliance that are required to be
reported under Government Auditing Standards. These instances of noncompliance are included
in the Findings and Recommendations section of this report as items 2 and 4.

We considered these instances of noncompliance in forming our opinion on whether TJCC=s
Schedule of Job Corps Expenses are presented fairly, in all material respects, in conformity with
the accounting principles described in Note 1. This report does not affect our report dated
December 14, 2001, on that schedule.




                                                                                                    9
Audit Report 03-03-004-03-370
This report is intended solely for the information and use of the TJCC=s management and the
U.S. Department of Labor, Office of Inspector General and Office of Job Corps. This report is
not intended to be, and should not be, used by anyone other than these specified parties.




R. Navarro & Associates, Inc.
San Diego, California
December 14, 2001




                                                                                                10
Audit Report 03-03-004-03-370
                           FINDINGS AND RECOMMENDATIONS


1.   Lack of Documentation for Security Services Subcontract Results in Questioned Costs
     of $645,945

     During our audit period, the contractor utilized an outside company to provide security
     services at the Center. The total amount paid to this subcontractor dur ing our audit period
     was $645,945, which included direct labor charges, plus indirect charges at 6.5 percent, plus
     a provision for profit (fixed fee), as follows:

                               Direct costs           $ 577,639
                               G & A @ 6.5%              37,547
                               Contractor=s Fee          30,759
                                                      $ 645,945

     A subcontract of this type and size would normally require formal negotiation using
     competitive procedures and approval by DOL prior to issuance, in accordance with Job
     Corps’ policy and the Federal Acquisition Requirements (FAR). However, according to the
     contractor, this subcontract was jointly proposed as part of the Center operating contract,
     was an integral part of that proposal, and, therefore, was approved by DOL upon acceptance
     of the Center proposal. While we concur that this subcontract was identified in the Center
     operating proposal negotiated with the DOL, we noted the following:

     a.   We requested a copy of the written subcontract negotiated between the contractor and
          subcontractor that set forth the scope, payment terms, and other pertinent criteria
          governing the services to be provided. A subcontract was not provided by either the
          Center or the subcontractor. The only documents available were those submitted with
          the Center operating proposal, which included background information about the
          subcontractor, a brief (two-sentence) statement of the services to be performed, and a
          proposed budget. No written subcontract agreement was provided which established
          the exact scope of services, the levels and rates agreed to by both parties, the applicable
          regulations, the applicable FAR clauses governing these services, etc. In addition, there
          was no documentation which provided evidence that the fees paid to this contractor
          were determined to be competitive.

          This lack of documentation is contrary to the subcontracting plan submitted by the
          contractor to DOL (in which the security subcontractor is identified as one of the
          Centers planned subcontractors). The plan indicates that AAll subcontracts will clearly
          define the scope of the work to be performed, delivery schedule, reporting and interface
          relationships, performance standards, subcontractor evaluation procedures, inspection,
          insurance and termination clauses; terms and conditions; and any other government or
          company required policies and procedures.@ (Subcontracting Plan - 5, August 18,


                                                                                                  11
Audit Report 03-03-004-03-370
         1999) The plan also indicates that subcontracting policies emphasize Abuying at the
         lowest possible cost@ and Adeveloping and using multiple sources of supply for
         maximum competition whenever possible.@ (Subcontracting Plan - 1, August 18, 1999)

         Furthermore, subcontracts for goods or services of any nature should include a written
         contractual agreement that sets forth the terms and responsibilities of all parties
         involved. This is a prudent business practice and is necessary to ensure that Job Corps
         resources are used only for their intended purpose, and that the integrity of the funds
         provided by the Federal government is adequately protected.

         Because there was no written contract between the Center and the subcontractor, and
         the information provided in the proposal was very limited, we were unable to ascertain
         the exact scope of services to be performed or the other pertinent terms or conditions of
         the subcontracted services. As a result, we were unable to determine if the costs
         incurred for this subcontract were reasonable and incurred in accordance with the Job
         Corps’ contract and applicable regulations. The total costs incurred of $645,945
         represents questioned costs. In the following paragraphs, we have separately
         questioned specific items identified for this subcontract which are considered to be
         unsupported or otherwise unallowable.

    b.   We requested support for the actual charges incurred for this subcontract during the
         audit period and were provided with invoices that had been submitted to the Center by
         the subcontractor. The invoices did not indicate the number of labor hours billed, the
         dates that labor hours were incurred, or the labor positions or rates charged. Rather, the
         invoices only indicated the total amount charged for labor, indirect and fixed fee.
         There was no supporting documentation provided for the amounts charged, and the
         Center processed the invoices for payment without adequate support. No independent
         records were maintained at the Center on the dates and times of services performed.

         We were informed that supporting payroll records were available at the subcontractors
         offices. Therefore, we subsequently visited the subcontractor and performed tests of
         the payroll records presented in support of the invoices paid by the Center. We found
         the following:

         S   Time sheets could not be located in support of the first three payroll periods
             invoiced to the Center (pay periods ending July 7, July 14, and July 21, 2000).
             The related salaries and fringe benefits of $28,910, plus related G&A charged by
             the contractor of $1,879 represents questioned costs.

         S   We noted that the subcontractor charged the Center for salaries and fringe benefits
             related to an individual who held an administrative support position within the
             company. This job position was not specified in the Job Corps proposal as a direct
             labor charge, and the salaries and fringe benefits charged for this individual of
             $20,125, plus related G&A charged by the contractor of $1,228 represents
             questioned costs.



                                                                                                12
Audit Report 03-03-004-03-370
    c.    The invoices reviewed reflect that a contractor=s (fixed) fee was paid to the
          subcontractor. However, the subcontract budget detail submitted with the Center
          operating proposal did not provide for a contractor=s fee. Rather, it indicated only
          direct costs and G&A charges. Furthermore, subcontracts that include a provision for
          fixed fee require specific notification to the awarding Federal agency. The total fixed
          fee paid to the subcontractor of $30,760 represents questioned costs.

    d.    The invoices reviewed reflect that the subcontractor was paid G&A at a rate of 6.5
          percent. However, the proposal submitted to DOL indicated that G&A would be paid
          at a rate of 5 percent. The difference of 1.5 percent resulted in overcharges of $8,665,
          an amount that represents questioned costs.

    The regulations state the following:

          The Job Corps Director shall ensure that sufficient auditable and otherwise
          adequate records are maintained to support the expenditure of all funds under
          the Act. 20 CFR ' 638.800

          A contractor is responsible for accounting for costs appropriately and for
          maintaining records, including supporting documentation, adequate to
          demonstrate that costs claimed have been incurred, are allocable to the
          contract, and comply with applicable cost principles in this subpart and
          agency supplements. 48 CFR ' 31.201-2 (d)

          (a) A cost is reasonable if, in its nature and amount, it does not exceed that
          which would be incurred by a prudent person in the conduct of competitive
          business . . . . (b) What is reasonable depends upon a variety of considerations
          and circumstances, including . . . . (2) Generally accepted sound business
          practices, arm=s length bargaining, and Federal and State laws and regulations
          . . . . 48 CFR ' 31.201-3

          Under cost-reimbursement contracts, even if the contractor has an approved
          purchasing system and consent to subcontract is not required under 44.201-1,
          the contractor is required by statute . . . to notify the agency before the award
          of (a) any cost-plus- fixed- fee subcontract . . . . 48 CFR ' 44.201-2

    Recommendations

    We recommend that the Assistant Secretary for Employment and Training require the
    contractor to:

         Refund $645,945 because documentation maintained by the contractor did not
         substantiate that these costs were reasonable and allowable costs, incurred in accordance
         with the terms of the Job Corps’ contract and applicable laws and regulations.



                                                                                                    13
Audit Report 03-03-004-03-370
      Ensure that subcontracts for goods or services of any nature include a written contractual
      agreement that sets forth the terms and responsibilities of all parties involved.

      Ensure that invoices submitted for any subcontracted services include adequate support
      for the amounts billed, such as time sheets or logs of hours incurred, by individual; by
      date; the related hourly rate(s) billed; and other pertinent documentation.

      Ensure that charges to the Job Corps’ contract include only those charges negotiated with
      the subcontractor and approved by the DOL.

    Contractor’s Response

    The contractor did not respond specifically to the recommendations listed above. However,
    the contractor provided the following:

      The auditors are correct. Although CUBE had been included as a major subcontractor
      in our proposal and we received the services for which we were billed, we failed to
      execute a written agreement with CUBE. Due to pressures of start-up, this requirement
      was overlooked. Since there is clear evidence that the subcontracted services were
      provided, this is an administrative issue. As such, the Contracting Officer can
      retroactively approve a written contract for these services. We submitted such a
      subcontract to Donald E. Scott, Contracting Officer, Office of Youth Services and Job
      Corps, Region III. In a letter dated 19 May 2003, he approved the contract.

    The contractor provided a copy of the subcontract and the letter documenting Job Corps’
    retroactive approval.

    Auditors’ Comments

    Our audit conclusions remain unchanged, despite the fact that a written subcontract was
    retroactively executed and approved by the Regional Office.

    In our discussions with the contractor, we were told that information regarding the
    subcontractor (CUBE) and the services to be provided were specifically identified in the
    center proposal, and as such were an intregal part of that proposal. This was used to justify
    the fact that the security services were not competitively bid, and that the contractor did not
    request regional office approval of the subcontract (the contractor claimed that acceptance
    of the proposal was, in fact, acceptance of the “subcontract” for security services).
    Accordingly, we performed audit tests to ascertain whether the costs charged by CUBE, at a
    minimum, were in accordance with the terms of the proposal. As noted in our finding, we
    found discrepancies between the terms of the proposal and the actual charges for security
    services.




                                                                                                 14
Audit Report 03-03-004-03-370
    In response to our finding, the contractor has presented a subcontract agreement,
    retroactively executed and approved by the Regional Office, that changes the terms of the
    proposal for each area identified as a discrepancy in our audit finding. The specifics are as
    follows:

    -   The proposal allowed G&A costs of 5 percent. The rate was changed in the subcontract
        agreement to 6.5 percent, the actual amount billed by CUBE.

    -   The proposal did not include a provision for a fixed fee. A provision was added to the
        subcontract agreement for a fixed fee of $30,759, the actual amount billed by CUBE.

    -   The proposal included direct labor and fringe for security personnel only.
        Administrative charges were only provided as part of the G&A rate. Direct labor
        charges were added to the subcontract agreement for one secretarial position, the actual
        position billed by CUBE throughout the year.

    We do not believe that it is appropriate to mirror the subcontract agreement to reflect actual
    payments made to CUBE, rather that using the terms set forth in the original proposal, since
    the proposal (while limited) was the only evidence as to the original agreement between the
    contractor and subcontractor.

    In addition, the Regional Office retroactively approved the CUBE contract based partially
    on the fact that the resulting costs were less that those budgeted in the proposal. However,
    we do not concur that this is an indication that the costs incurred were reasonable. The
    proposed versus actual costs are as follows:

                                                     Proposed         Actual
             Direct labor and fringe
                 Security                            $647,928       $557,514
                 Administration                             0         20,125
             G& A                                      34,042         37,547
             Other direct costs (supplies)             32,840              0 *
             Fixed fee (profit)                             0         30,759
             Total                                   $714,810       $645,945

    *   According to the subcontract, supplies were paid by the contractor not the
        subcontractor. However, the proposal provided a budget for the subcontractor to pay
        these costs.

    While the actual costs were in fact less than the proposed costs, this was due to a reduction
    in the actual wages paid for security personnel, and to the fact that the contractor paid for
    security supplies rather than the subcontractor. The actual charges reflect an increase in
    administrative costs and include a provision for profit not included in the original proposal.
    We do not concur that the decrease in total contract costs provides a basis by which to




                                                                                                 15
Audit Report 03-03-004-03-370
    conclude that the costs incurred were reasonable or that services were provided as originally
    proposed.

    Finally, the contractor’s response did not address the fact that CUBE could not locate
    timesheets in support of all payroll charges for the first three weeks of operation.

    Our recommendations remain unchanged.




                                                                                               16
Audit Report 03-03-004-03-370
2.   Insufficient Controls over Payroll Processing

     The TJCC was jointly operated by two separate entities during the audit period, Global
     Associates and ETR, Inc., the protege subcontractor. The Center used an outside payroll
     service to process payroll for both companies. Our audit of the TJCC=s payroll expenses
     identified the following deficiencies.

     a.   We noted that the employee leave balances were not accrued in accordance with
          existing personnel policies. Both ETR and Global Associates personnel policies
          provide 80 hours of sick or short-term leave and 80 hours of annual leave per year. The
          Global employee handbook states that the leave accrual is 3.6924 hours per pay period
          (up to the 80 ho urs maximum). ETR policy states employees accrue 8 hours a month
          up to the 80 hour maximum, rather than a set amount per pay period.

          Assuming an equal accrual per pay period, the accrual rate would be 3.0769 hours per
          pay period (80 hours per year/26 biweekly pay periods = 3.0769 hours per pay period).
          However, our tests of the accrued leave records identified that leave was actually
          accrued at a rate of 3.34 hours per pay period, or in some cases, 3.18 hours per pay
          period. The accrual of 3.34 hours per pay period is the computation for a semimonthly
          payroll (80 hours/24 pay periods = 3.34 hours per pay period) rather than a biweekly
          payroll. The Center staff believed that 3.34 was the correct accrual, and did not know
          why some employees were accruing at a different rate (3.18). In either case, the rates
          applied were not in accordance with existing personnel policies and resulted in
          incorrect accruals of sick and annual leave. The ending balances for many employees
          exceeded the maximum of 80 hours per year.

          In response to this finding, Center staff indicated that they were planning to transfer to
          a different accounting and payroll system. However, we conclude that this situation
          was not caused by the payroll service. Rather, it was caused by a lack of sufficient
          internal controls within the payroll department to detect and correct the excess leave
          accruals on a timely basis.

          ETR personnel policies state the following:

              Vacations. Eligible employees, with one to five years of service, will
              accrue vacation hours during each month of active employment at the
              rate of (8) hours (one working day) per month, up to a maximum accrued
              vacation time of eighty (80) hours (10 working days). Employee
              Handbook, Turner Job Corps Center, ETR, p. 30.

              Short Term Absences. Regular, full-time employees accrue short term
              absence hours during each month of employment at the rate of eight (8)
              hours (one working day) per month, up to a maximum accrued short term
              absence time of eighty (80) hours (10 working days). Employee
              Handbook, Turner Job Corps Center, ETR, p. 31.



                                                                                                   17
Audit Report 03-03-004-03-370
         Global Associates personnel policies state the following:

             Vacation Leave. All regular status exempt and non-exempt staff accrue
             the following hours of Vacation Leave: During one (1) to five (5) years
             of service, staff members accrue a maximum of eighty (80) hours of
             Vacation Leave per year. Vacation Leave is accrued at a rate of 3.6924
             hours per pay period for full- time staff. Employee Information
             Handbook, Turner Job Corps Center, Global Associates, p. 25.

             Sick leave. Staff accrue ten (10) days of sick leave per year. A maximum
             of eighty (80) hours can be accumulated with no cash out option for
             unused sick leave. Employee Information Handbook, Turner Job Corps
             Center, Global Associates, p. 25.

         In addition, the cost principles applicable to Job Corps contractors indicate that
         payment of annual and sick leave is an allowable contract cost only if paid in
         accordance with contractor policy. The cost principles state the following:

             The costs of fringe benefits are allowable to the extent that they are
             reasonable and are required by law, employer-employee agreement, or an
             established policy of the contractor. 48 CFR ' 31.205-6(m)(1)

    b.   Our audit of payroll expenses included a test of 66 payroll transactions. This test
         identified numerous exceptions, as follows:

         S   The Personnel Payroll Action Form (PPAF) which documents the approved rate of
             pay could not be located for one sample.
         S   The time cards were found to contain mathematical errors for 12 samples, because
             the hours logged for a particular day did not agree to the total hours reflected for
             that day. This caused both overpayments and underpayments to these employees.
         S   Leave taken was not recorded against leave balances but was paid as regular time
             for three samples. In one of these cases, an employee was paid for 6 hours of sick
             time which was not reflected on the time card and resulted in an overpayment.
         S   Time cards were not signed by the supervisor for four samples.
         S   The approved rate (as of July 2000) for one sample was $13.23. However, the
             actual rate paid (as of September 2000) was $11.32.
         S   For one sample, the approved rate (as of July 2000) was $13.23 per hour.
             However, the letter of offer dated June 21, 2000, indicated a rate of $11.55 per
             hour.
         S   The PPAF was not located in the employee files provided for two samples. This
             was brought to the Center=s attention, and we were subsequently provided with
             PPAF forms dated July 2000. However, the rates of pay indicated on the forms
             were not the actual rates paid until September 2000, 3 months after the effective
             date indicated on the PPAF.



                                                                                               18
Audit Report 03-03-004-03-370
         S   In one sample, the wrong amount was paid. The transaction was entered for 80
             hours at an authorized rate of $12.21 per hour, or $976.80. However, the gross
             amount of the check was $1,000.80.
         S   For 12 samples, the actual rate of pay exceeded rates proposed for like positions on
             the Job Corps proposal, and two were not listed on the proposal.

         Of the 66 samples tested, 29 (44 %) had at least one exception. While only certain of
         these errors resulted in overpayments or underpayments, and the dollar amounts
         involved were not material, these sample results indicate a very high level of control
         risk over the processing of payroll transactions. Payroll transactions were not being
         properly reviewed for accuracy and many mistakes went unnoticed. We conclude that
         the internal controls in place at the Center were not sufficient to identify and correct
         payroll errors on a timely basis, resulting in a high risk of error over payroll expenses.

             The Job Corps Director shall ensure that sufficient auditable and
             otherwise adequate records are maintained to support the
             expenditure of all funds under the Act. 20 CFR ' 638.800

             A contractor is responsible for accounting for costs appropriately and
             for maintaining records, including supporting documentation,
             adequate to demonstrate that costs claimed have been incurred, are
             allocable to the contract, and comply with applicable cost principles
             in this subpart and agency supplements. 48 CFR ' 31.201-2 (d)

             The Job Corps Director shall establish procedures to ensure that each
             center operator and each subcontractor maintain a financial management
             system that will provide accurate, complete, and current disclosures of
             financial results of Job Corps operations, and will provide sufficient data
             for effective evaluation of program activities. Fiscal accounts shall be
             maintained in a manner that ensures timely and accurate reporting as
             required by the Job Corps Director. 20 CFR ' 638.808

    c.   Payroll expense is recorded in the payroll registers, journalized to the general ledger,
         and reported on the ETA 2110. For the most part, the payroll registers indicate each
         employee’s department code, which translates to a corresponding general ledge r
         account and to a line item in the ETA 2110. However, we noted that the payroll
         register and department listing did not include department codes for all job positions.
         We noted two key positions, the Administrative Services Director Protégé and the
         Center Director Protégé, that were not coded with a department code.

         The finance manager stated that the coding for these positions was made to the correct
         departments based on his knowledge of which accounts to use, and did not consider this
         a problem since he was the only one responsible for coding payroll. Although our
         testing did not identify payroll expenses coded to the wrong general ledger accounts,
         the correct classification of transactions should not be dependent upon the knowledge



                                                                                                    19
Audit Report 03-03-004-03-370
         of one individual, rather, this should be documented in the Center=s accounting
         procedures. We conclude that all positions should be treated consistently and included
         in the chart of accounts.

         The likelihood and risk of misstatement increase when tasks such as transaction coding
         are not performed in accordance with an established chart of accounts.

             The Job Corps Director shall establish procedures to ensure that each
             center operator and each subcontractor maintain a financial
             management system that will provide accurate, complete, and
             current disclosures of financial results of Job Corps operations, and
             will provide sufficient data for effective evaluation of program
             activities. Fiscal accounts shall be maintained in a manner that
             ensures timely and accurate reporting as required by the Job Corps
             Director. 20 CFR ' 638.808

    d.   We noted that two academic instructors did not have teaching credentials, even though
         these are required by both Job Corps and TJCC policy. The job descriptions provided
         by the Center stated that teaching credentials were required for these instructor
         positions. In addition, the PRH states the following:

             Center operators and OAP contractors shall ensure that all staff hired
             meet the minimum qualification levels specified in Exhibit 8-3.
             PRH, Chapter 8, p. 8-6.

             Academic Instructor [minimum qualifications]. Certified to teach in
             State in which center is located (may be waived by RO if center
             unable to hire certified teachers, but must pursue certification). PRH
             Chapter 8, Exhibit 8-3, p. 1.

         The Center indicated that it understood that a college degree would suffice to qualify as
         an instructor. As a result, the Center is not in compliance with the staffing
         requirements outlined by the Job Corps Program for the use of the funds in regard to
         academic instructors.

    e.   Two personnel payroll action forms (PPAF) requested during our review of accrued
         leave balances were not available. According to Center personnel, the new contractor
         (effective July 1, 2001) rehired some of the Center staff employed by the prior
         contractor. When this happened, corporate personnel handled the hiring, letters of
         offer, and the creation of personnel payroll action forms, along with entering the new
         pay rates for employees in the database. Not all of this documentation was consistently
         included in the employee files.




                                                                                                20
Audit Report 03-03-004-03-370
             The Job Corps Director shall ensure that sufficient auditable and
             otherwise adequate records are maintained to support the expenditure of
             all funds under the Act. 20 CFR ' 638.800.

             A contractor is responsible for accounting for costs appropriately and for
             maintaining records, including supporting documentation, adequate to
             demonstrate that costs claimed have been incurred, are allocable to the
             contract, and comply with applicable cost principles in this subpart and
             agency supplements. 48 CFR ' 31.201-2 (d)

    Recommendations

    We recommend that the Assistant Secretary for Employment and Training direct the
    contractor to:

             Take the necessary steps to improve existing controls at the Center to ensure that
             adequate records are maintained in support of payroll transactions; that all
             positions include department codes; and that the processing of the biweekly
             payrolls is well documented, approved, and results in accurate and properly
             classified payroll transactio ns. Specifically, the contractor should ensure that
             biweekly payrolls are reviewed for accuracy prior to distribution of the payroll
             checks.

             Review existing leave policies and ensure that sick and annual leave is accrued at a
             rate in accordance with such policies. Payroll records should be periodically
             verified to ensure that leave is set up correctly with the payroll service, and that the
             resulting leave balances are accurate.

             Obtain Job Corps’ regional office approval in cases where instructors do not have
             the required licenses or credentials.

    Contractor’s Response

    With certain exceptions, the contractor concurred with our audit findings and provided
    various explanations for many of the payroll discrepancies noted in our report. In general,
    the response focused on the fact that a new contractor operates the center, and that changes
    have been made to various procedures used to control and account for center payroll
    transactions. Notable exceptions were:

    -   The contractor contended that the Child Care Specialist position was listed in the center
        business proposal;
    -   The contractor contended that discrepancies between actual and approved rates of pay
        were corrected with retroactive pay adjustments; and
    -   The contractor contended that waivers were obtained for non-certified instructors.




                                                                                                  21
Audit Report 03-03-004-03-370
    Specific responses to our recommendations were provided as follows:

      We feel that sufficient internal controls are currently in place to identify and correct
      payroll errors in a timely manner and adequate records are maintained in support of
      payroll transactions . . . .

      All staff in the payroll system currently are assigned department codes.

      The current CSD payroll system does provide a report of gross pay and deductions which
      the payroll clerk reviews for accuracy prior to checks being processed. ETR is still on
      the original ADP software version and this review is performed after the checks arrive on
      the Center . . . . ETR has purchased a new software system that includes a payroll
      module. The payroll module will be in operation in July or August, 2003 and will
      provide the capability to review gross/deductions calculations prior to the issuance of
      pay checks.

      The Center is currently adhering to these [existing sick leave and annual leave]
      policies . . .

      We make every effort to hire instructors who are certified. When we are not able to do
      so, a waiver is obtained from the Department of Labor.

    Auditors’ Comments

    We concur with the contractor’s stated intentions to improve internal controls over the
    payroll process. However, no documentation was provided beyond the contractor’s written
    response, and we cannot conclude as to the effectiveness of any controls implemented
    subsequent to the period covered by our report. Our findings and recommendations remain
    unchanged.

    With respect to the Child Care Specialist position, we are aware that the proposal lists these
    positions for line 13 of the center operating budget (Child Development Center). However,
    the budget for line 13 was $0. These costs were to be paid with other funding sources and
    were not part of the proposed Job Corps contract costs. The child development staff noted
    in our finding were charged to line 5 of the ETA 2110, as residential advisors.

    With respect to retroactive pay adjustments and waivers for non-certified instructors, we
    were not provided with documentation to substantiate the contractor’s statements that
    appropriate pay adjustments were made to the respective center employees, or that regional
    office waivers were obtained for non-certified instructors. Documentation was not provided
    at the time the center was presented with our initial audit results or with the written response
    to the draft report.




                                                                                                 22
Audit Report 03-03-004-03-370
3.   Need to Improve Accountability over Inventories of Consumable Supplies

     Job Corps Centers are required to maintain perpetual inventories of consumable supplies for
     clothing, food, educational and vocational materials, medical and dental supplies, fuel, and
     other inventory items. In general, purchases of inventory items are vouchered at the time of
     receipt and expensed as items are issued from inventory for use at the Center. Centers are
     required to process all receipts and issues through the inventory accounts in order to
     maintain a complete accounting of inventory items. Our audit of the TJCC=s inventory
     system and records disclosed certain discrepancies which are described as follows:

     a.   The source documents provided for inventory issues (i.e., amounts distributed from
          inventory) did not add up to the total issues recorded in the general ledger and reported
          on the ETA 2110. We requested records of inventory issues, including the supporting
          request slips. The files provided contained numerous computer printouts listing
          inventory issues, which were attached to the approved request slips. We totaled these
          documents for the month of June 2001 and noted that the total dollar amount was about
          $39,000 less that the $199,000 of inventory issues reported on the ETA 2110. In order
          to determine if this difference was caused by adjustments for inventory shortages, we
          obtained the records of inventory adjustments for the same month. However, the
          adjustments provided by the Center only totaled to about $2,000, and there were no
          large shortages reported on the ETA 2110 for the month. We also noted one inventory
          issue report of $5,187 for food was not supported by approved request slips. (Costs
          were not questioned because this was an isolated occurrence.)

          Part of the problem we believe was due to the fact that inventory records are not
          organized and tracked by ETA 2110 category. Rather, the records for multiple
          categories are filed together making it difficult to determine which issues support the
          respective ETA 2110 category.

     b.   While scanning the inventory issue reports for medical and dental supplies, we noted
          instances where the value of the issues was computed using a zero cost. A review of
          the issues entered in the system shows the system assigned $0 unit cost to items issued
          from the medical and dental inventory account, which are transferred to the medical
          and dental expense category. This has the result of overstating the dollar value of the
          ending inventory and understating medical and dental expenses.

          We inquired about this finding and were informed that while the finance manager was
          unaware of the computer problem, the data entry staff had previously identified that the
          computer system was not working properly. The computer problem was rectified,
          however, the value of past issues of inventory was not adjusted. As a result, medical
          and dental expenses remain understated, and ending inventory values overstated on the
          ETA 2110. While our estimate of the amount misstated is not considered to be material
          for audit purposes, had this situation occurred in the food or other inventory categories,
          it could have resulted in a much higher misstatement.




                                                                                                    23
Audit Report 03-03-004-03-370
    Based on these facts, we conclude that the Center did not exercise adequate accountability
    over Center inventories. These inventories are Federal assets, and the lack of accountability
    increases the risk that such assets may not be used for their intended purpose.

    The PRH requires Center operators to safeguard and account for consumable inventories, as
    follows:

        It is important to note that inventory is a government-owned asset and must be
        protected and accurately reported. All receipts and issues in the inventory
        accounts must be recorded. Abnormally high or low usage in a particular
        category may not be evident if records do not reflect total usage. PRH,
        Chapter 9, Appendix 901, p. 64

        The contractor, however, must exercise due diligence and control over such
        property [inventory] to maximize its use and minimize the potential for theft
        and diversion to personal use. At a minimum, the expendable property must
        contain the following components/capabilities: A. Receipts . . . ;
        B. Distributions . . . ; C. Remaining Balance . . . ; D. Inventories. The
        records must be verified through periodic inventories, not less than once per
        quarter. ETA Handbook 359, Supplement for Job Corps Property Managers,
        Chapter VI, Section 3, pp. 4-5

    Recommendations

    We recommend that the Assistant Secretary for Employment and Training require the
    contractor to:

        Improve the accountability over inventories of consumable supplies to ensure that
        records of inventory issues are consistently filed and maintained, and that the inventory
        system generates an accurate accounting of all receipts, issues, and ending inventory
        balances.

        Identify the exact amount of medical and dental issues that were not properly reflected
        as expense on the general ledger and ETA 2110. Once the amount is identified, an
        adjustment should be recorded to both records.

    Contractor’s Response

    In response to this finding, the contractor describes various inventory procedures currently
    used by the center to account for inventories of consumable supplies. With respect to our
    audit recommendation, the contractor states:

      We feel that the Center currently has a system with adequate accountability for
      inventories of consumable supplies . . . . The Finance Manager reviews and verifies that
      the total issues amounts per the source documents agree with the issues amounts per the



                                                                                               24
Audit Report 03-03-004-03-370
      ETA 2110. CSD policy requires that physical inventories be conducted in accordance
      with the PRH. If variances occur between the physical and book inventories, the book
      inventory is adjusted to the physical inventory count valuation.

      We are currently in the process of identifying the amount of medical and dental issue
      costs as recommended and will make any necessary adjustment to the general ledger and
      ETA 2110.

    Auditors’ Comments

    We concur with the contractor’s stated intentions to provide adequate control over the
    inventory process. However, no documentation was provided beyond the contractor’s
    written response, and we cannot conc lude as to the effectiveness of any controls
    implemented subsequent to the period covered by our report. Our findings and
    recommendations remain unchanged.




                                                                                             25
Audit Report 03-03-004-03-370
4.   Need to Improve Controls over Property and Equipment

     The Job Corps program uses a property ma nagement system, entitled EPMS, to track and
     manage non-expendable property held at the Job Corps Centers. All Centers are required to
     electronically input pertinent property data into the system and to maintain all associated
     documentation in support of the entries recorded. The Inventory Master List (IML) is
     generated on a monthly basis from EPMS, and Center operators are responsible to review
     the IML and verify that the inventory and transactions processed within the period are
     accurate.

     Our tests of the Center=s non-expendable property and equipment identified the following:

     a.   We noted many items of non-expendable property and equipment were not tagged with
          DOL property tags, as explained below:

          S   We selected a sample of non-expendable property acquired during the audit period.
              Of the 16 items in the sample, 8 items were not tagged as DOL property. These
              included five computers, one television, and two other pieces of equipment. In
              performing this test, we observed 15 additional acquisitions, computers with
              monitors and computer cameras, which were not tagged.

          S   We selected 15 items from the IML to verify their physical existence at the Center.
              We noted one item, an offset machine with a cost of $23,589, which was not
              tagged as DOL property. (We identified the machine with the serial number label
              affixed by the manufacturer.) At the same location, we observed two additional
              offset press machines, valued at $8,500 and $12,430, respectively, which were not
              tagged as DOL property.

          S   We selected 10 serialized pieces of equipment from the Center premises to see if
              the items were recorded in the IML. We noted that 4 of these 10 items were not
              tagged as DOL property. These included a computer, a monitor, a radio, and the
              copier in the records office.

          According to Center staff, many of the items in question were Aold@ and the tags had
          fallen off. However, this did not explain the lack of tags on current year acquisitions.
          We conclude that the Center was not adequately tagging property and equipment as
          required in the regulations. Proper identification of Center property as AUS Department
          of Labor@ is essential to ensure that these Federally-owned assets are properly
          safeguarded and used only for their intended purpose. The regulations require the
          following:

              All non-expendable Federal property whether owned, loaned, or
              rented, must be labeled with DOL property decals upon receipt by
              the contractor . . . . The required information is AU.S. Department of
              Labor,@ the item code assigned the item in the EPMS, and the item=s



                                                                                                 26
Audit Report 03-03-004-03-370
             serial number. ETA Handbook 359, Supplement for Job Corps Property
             Managers, Chapter VI, Section 9.A.IV, p. 13

    b.   We tested 16 items of property acquired during our audit period and found that 6 items
         were received but not entered in EPMS on a timely basis. (The EPMS requires
         property to be entered within 10 days of receipt.) These are as follows:

                                                        Date      Date Recorded    Number of
               Serial Number          Description     Received      in EPMS          Days
            CMA025CG43HP133       Computer monitor    10-11-00        1-4-01          55
            EUR005001831          Vacuum cleaner       2-23-01       3-16-01          21
            HWPMY08G15281         Laser printer       10-11-00        1-4-01          55
            HWPUSBB378641         Laser printer       10-10-00        1-4-01          56
            MOT869FBC2634         Radio unit, 2 way    2-20-01        3-7-01          15
            SHA708461             Television          11-28-00       1-11-01          45

         If property is not recorded in EPMS on a timely basis, the property is not accorded the
         safeguards of the system, thereby increasing the risk of loss or misuse.

             The contractor is responsible for updating EPMS and supplying all
             associated supporting documentation to the RJC [Regional Job Corps]
             property officer within 10 working days of property activity. (Job Corps
             Centers should maintain their electronic transactions at least on a weekly
             basis). ETA Handbook 359, Supplement for Job Corps Property
             Managers, Chapter VI, Section 4, p. 5

    c.   Of the 16 property acquisitions selected for testing, we noted that 7 laser printers were
         purchased without obtaining the required Property Requisition List (PRL). These items
         were all purchased with PO #685 dated 9-29-00. The Center should have had a PRL
         for the PO, given the individual item amounts.

         The Center property manager stated that according to prior versions of the PRH, a PRL
         was not required for items costing less than $500 regardless of the PO total dollar
         amount. However, the PRH in effect during the audit period, November 1999, as well
         as the previous version dated October 1998, do not indicate such guidelines. Rather,
         the PRH requires that contractors account for expendable and non-expendable property
         in accordance with ETA Handbook 359.

             DOL/ETA requires that all contractors use a PRL to inform DOL of their
             requirements for non-expendable personal property that the contractor
             wishes to procure with Government funds. ETA Handbook 359, Chapter
             III, Section 2, p. III-1

             Non-expendable property includes the classes and types of property listed
             below. (a) Furniture regardless of cost. (b) Any other property,



                                                                                               27
Audit Report 03-03-004-03-370
             regardless of classification, that has a unit acquisition cost of $50 or
             more. ETA Handbook 359, Chapter I, Section 3.m.(2), p. I-3

         We conclude that the Center was not in compliance with the requirement to obtain
         DOL approval via the submission of a PRL for all required purchases of non-
         expendable property, as defined by the regulations.

    d.   We selected a sample of 15 items from the IML to determine if the items could be
         physically located at the Center, were actually at the correct location as listed in the
         IML, and were in usable condition. We observed the following:

         S   One paving machine with a cost of $94,000 was not found at the Center, and the
             property officer was not aware of its location. Subsequently, the property officer
             found that the machine was located in Maryland with the paving instructor and the
             paving class. However, no paperwork was used to monitor the temporary transfer
             of this machine to an off-center location. The property manager advised that it is
             necessary for some machines to be transferred off Center, and the instructors
             would always know where the machines were located.

             This lack of documentation for temporary transfers of property is not in
             accordance with DOL policy. In such cases, Center operators are required to
             document transfers of property using a hand receipt system, as follows:

                  . . . contractors must establish a hand receipt system for documenting
                  temporary movement of property between locations. Contractors are
                  responsible for knowing where Federal property assigned to them is
                  at all times, and hand receipts should reduce the time spent updating
                  EPMS to accomplish temporary and/or interim moves of property.
                  ETA Handbook 359, Supplement for Job Corps Property Managers,
                  Chapter VI, Section 4, p. 6

         S   Two computers with an aggregate value of $31,613 were also not found at the
             Center. According to the property manager, these items had been disposed of.

             One item was transferred to another Center on a SF-122, signed by the Job Corps
             Regional Office on June 30, 2000. While the disposition was approved, the item
             should have been taken off EPMS within 30 days of disposition. Over a year later
             the equipment was still listed in the TJCC=s IML. The Center property manager
             indicated that EPMS was not yet updated.

             No paperwork was available to document the disposition for the second item. The
             Center property manager indicated that possibly the approval was not yet given, in
             which case the equipment should not have been removed from EPMS. However,
             the documentation requesting the disposition approval (form SF-120) was not
             available.



                                                                                                    28
Audit Report 03-03-004-03-370
                  All disposition actions require interaction between the contractor and
                  the Regional Job Corps (RJC) property officer, i.e., the contractor
                  must contact DOL before property disposal. No property can be
                  removed from the EPMS without the requisite approvals and
                  substantiating documentation described in this Chapter. ETA
                  Handbook 359, Supplement for Job Corps Property Managers,
                  Chapter VII, Section 1, p. 16

                  Once relief of accountability for an item has been obtained, the
                  contractor should arrange for removal of the property within 30 days
                  of such notice. ETA Handbook 359, Supplement for Job Corps
                  Property Managers, Chapter VII, Section 2.D., p. 18

    e.   We selected 18 property items disposed during our audit period to ascertain whether the
         Center followed the guidelines of the ETA Handbook 359. We determined if the
         Center prepared an SF-120, obtained DOL approval, adhered to Job Corps Data Center
         officer instructions, and accurately removed the item from EPMS within 30 days of
         DOL approval. We found the following:

         S   Three items were disposed and taken off EPMS before requesting approval from
             the Regional Office, and before submitting the required SF-120. Although, the SF-
             120 was subsequently submitted to DOL, and the Region granted permission, this
             process is required befo re rather than after the actual disposition. Obtaining
             approval after disposition defeats the purpose of this procedure.

         S   Written DOL approval was not provided for three items.

         S   Form SF-120 was not provided for three items.

         Based on these facts, we conclude that the Center was not consistently following the
         requirements for disposition of non-expendable property. When these requirements are
         not followed, controls over the unauthorized removal of government-owned property
         from the Job Corps Center are substantially weakened, and property is not adequately
         safeguarded against loss, theft, or misuse.

         The ETA Handbook 359 includes the following requirements with regards to property
         disposal:

             DOL requires that all non-expendable DOL personal property that the
             Contractor wishes to dispose of, regardless of cost, condition,
             classification, and/or group number, be reported to DOL on SF-120 for
             disposition. ETA Handbook 359, Supplement for Job Corps Property
             Managers, Chapter VII, Section 2.A., p. 17




                                                                                             29
Audit Report 03-03-004-03-370
             All disposition actions require interaction between the contractor and the
             Regional Job Corps (RJC) property officer, i.e., the contractor must
             contact DOL before property disposal. No property can be removed from
             the EPMS without the requisite approvals and substantiating
             documentation described in this Chapter. ETA Handbook 359,
             Supplement for Job Corps Property Managers, Chapter VII, Section 1,
             p. 16

             Once relief of accountability for an item has been obtained, the contractor
             should arrange for removal of the property within 30 days of such notice.
             ETA Handbook 359, Supplement for Job Corps Property Managers,
             Chapter VII, Section 2.D., p. 18

    Recommendations

    To ensure that Federal assets are adequately accounted for and safeguarded in accordance
    with Job Corps requirements, we recommend that the Assistant Secretary for Employment
    and Training require the contractor to improve the internal controls over acquisition,
    maintenance, and disposition of non-expendable property and equipment. Specifically, the
    contractor should ensure that (1) all Center property is tagged; (2) EPMS is updated on a
    timely basis; (3) temporary transfers of property are tracked with some form of hand receipt
    system; and (4) all purchases and dispositions of property and equipment are approved by
    DOL in accordance with Job Corps’ policy and procedures.

    Contractor’s Response

    With certain exceptions, the contractor concurred with our audit findings and provided
    various explanations for many of the property discrepancies noted in our report. In general,
    the response focused on the fact that a new contractor operates the center, and that changes
    have been made to various procedures used to control and account for center property.
    Notable exceptions were:

    -   The contractor contended that the March 1994 edition of Job Corps’ PRH specified a
        PRL approval threshold of $500, and that while subsequent editions are silent on this
        threshold, the policy remains that non-expendable property with a unit cost less than
        $500 do not require the use of a PRL. The contractor indicated that they received an
        email from the Regional Office confirming that PRL approval is only required for items
        costing $500 or more.
    -   The contractor contended that copies of all SF120s were provided to the auditors onsite,
        and that only one audit sample had an approval date subsequent to the date disposed.
        The contractor also explained that the system used by the center allowed dispositions of
        property once a SF120 was “acknowledged” by the regional office, and that this would
        sometime occur prior to the date the SF120 was received by the center.

    Specific responses to our recommendations were provided as follows:



                                                                                              30
Audit Report 03-03-004-03-370
      All center property is tagged. As described above, the Property Department ensures that
      all property is tagged prior to delivery to the appropriate custodian. Property personnel
      also spot check for tags on a weekly basis. Labels are sent to all custodians during
      quarterly inventories and are made available to all staff. Annual custodian training and
      quarterly inventory instructions reinforce these procedures.

      EPMS is updated on a timely basis. The center currently updates the EPMS for all new
      acquisitions within 10 days. The Property Specialist delivers the accountable property to
      the responsible custodian. The custodian accepts receipt by signing a copy of the
      purchase order (PO). The Property Specialist returns the signed PO to a special file for
      this purpose on the Property Manager’s desk for entry into the EPMS.

      Temporary transfers of property are tracked with some form of hand receipt. As
      described above, hand receipts (internal move orders) are used to track temporary
      accountable property transfers on center. The original move order is retained by the
      custodian of record and a copy is issued to the temporary property custodian. The
      original move order is returned to the temporary custodian upon return of the property to
      the original custodian. All custodians are trained on this procedure during the annual
      property custodian training.

      All purchases and dispositions of property and equipment are approved by DOL in
      accordance with the Job Corps policy and procedure. Currently purchases requiring
      PRL approval from the Regional Office are obtained prior to purchase; the Buyer and
      Finance Manager monitor for compliance. All dispositions are approved by the Center
      Director and Regional Project Manager and are then processed in the EPMS system for
      the Regional Property Specialist to approve. Once approved on the EPMS and the hard
      copies of the approved forms SF120 are received on Center, the property disposition is
      effected.

    Auditors’ Comments

    We concur with the contractor’s stated intentions to provide adequate control over center
    property and equipment. However, no documentation was provided beyond the contractor’s
    written response, and we cannot conclude as to any controls implemented subsequent to the
    period covered by our report. Our findings and recommendations remain unchanged.

    With respect to the PRL approval level, our audit conclusions were based on the PRH and
    regulations effective during the audit period (PYE 2001). These regulations did not specify
    a unique dollar threshold for obtaining DOL approval. However, we concur with the
    contractor that the 1994 version of the PRH specified that only non-expendable property
    costing $500 or more required prior DOL approval. We believe that the Office of Job Corps
    should clarify the current requirements for approving purchases of center property and
    equipment, and revise the PRH or regulations as necessary.




                                                                                            31
Audit Report 03-03-004-03-370
    With respect to the SF120s, our conclusion remains that SF120s were not provided for all
    dispositions selected for our audit samples, and that certain SF120s were received by the
    Center subsequent to the date of property disposition. Copies of the SF120s in question
    were not provided by the contractor with their written response.




                                                                                                32
Audit Report 03-03-004-03-370
                              EXHIBIT I
             CONTRACTOR’S RESPONSE TO DRAFT AUDIT REPORT




                                                           33
Audit Report 03-03-004-03-370
    THE REMAINING CONTRACTOR’S RESPONSE TO DRAFT AUDIT REPORT
   CONTAINS CONFIDENTIAL INFORMATION SUBJECT TO THE PRIVACY ACT.
          AND THE REST OF THE RESPONSE WILL NOT BE SHOWN.




                                                                   35
Audit Report 03-03-004-03-370
